<html>
<title> - H.R. 1689, PRIVATE PROPERTY RIGHTS PROTECTION ACT OF 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





       H.R. 1689, THE ``PRIVATE PROPERTY RIGHTS PROTECTION ACT''

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION
                           AND CIVIL JUSTICE

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 30, 2017

                               __________

                           Serial No. 115-14

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://judiciary.house.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-009                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


























                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan,
    Wisconsin                          Ranking Member
LAMAR S. SMITH, Texas                JERROLD NADLER, New York
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
STEVE KING, Iowa                     STEVE COHEN, Tennessee
TRENT FRANKS, Arizona                HENRY C. ``HANK'' JOHNSON, Jr.,
LOUIE GOHMERT, Texas                   Georgia
JIM JORDAN, Ohio                     THEODORE E. DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
RAUL LABRADOR, Idaho                 DAVID N. CICILLINE, Rhode Island
BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
DOUG COLLINS, Georgia                TED LIEU, California
RON DeSANTIS, Florida                JAMIE RASKIN, Maryland
KEN BUCK, Colorado                   PRAMILA JAYAPAL, Washington
JOHN RATCLIFFE, Texas                BRAD SCHNEIDER, Illinois
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel

                                 ------                                

           Subcommittee on the Constitution and Civil Justice

                       STEVE KING, Iowa, Chairman
                  RON DeSANTIS, Florida, Vice-Chairman
TRENT FRANKS, Arizona                STEVE COHEN, Tennessee
LOUIE GOHMERT, Texas                 JAMIE RASKIN, Maryland
TREY GOWDY, South Carolina           JERROLD NADLER, New York

























                            C O N T E N T S

                              ----------                              

                             MARCH 30, 2017

                                                                   Page

                               BILL TEXT

H.R. 1689, the ``Private Property Rights Protection Act''........     V

                           OPENING STATEMENTS

The Honorable Steve King, Iowa, Chairman, Subcommittee on the 
  Constitution and Civil Justice.................................     1
The Honorable Steve Cohen, Tennessee, Ranking Member, 
  Subcommittee on the Constitution and Civil Justice.............     3
The Honorable John Conyers Jr., Michigan, Ranking Member, 
  Committee on the Judiciary.....................................     5

                               WITNESSES

Jeffrey Redfern, Attorney, Institute for Justice
  Oral Statement.................................................     7
Tina Barnes, Charlestown, Indiana
  Oral Statement.................................................     9
William Buzbee, Professor of Law, Georgetown University Law 
  Center
  Oral Statement.................................................    10



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
       H.R. 1689, PRIVATE PROPERTY RIGHTS PROTECTION ACT OF 2017

                              ----------                              


                        THURSDAY, MARCH 30, 2017

                        House of Representatives

           Subcommittee on the Constitution and Civil Justice

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 9:10 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Steve King 
[chairman of the subcommittee] presiding.
    Present: Representatives King, Franks, Cohen, Conyers, and 
Raskin.
    Staff Present: Paul Taylor, Majority Counsel; Jake Glancy, 
Majority Clerk; James Park, Minority Chief Counsel, 
Subcommittee on the Constitution; Matthew Morgan, Minority 
Professional Staff Member; and Veronica Eligan, Minority 
Professional Staff Member.
    Mr. King. The Subcommittee on the Constitution and Civil 
Justice will come to order. Without objection, the chair is 
authorized to declare a recess of the committee at any time.
    We welcome Mr. Cohen, and we welcome everyone to today's 
hearing on H.R. 1689, Private Property Rights Protection Act.
    I now recognize myself for an opening statement.
    On June 23, the Supreme Court, in a five-to-four decision 
in Kelo v. City of New London, held that, and I quote, 
``economic development,'' close quote, can be a public use 
under the Fifth Amendment's takings clause. In doing so, the 
Supreme Court allowed the government to take perfectly fine 
property rights from one small homeowner and give it to a large 
corporation for a private business facility.
    As a dissent in that case pointed out, under the majority's 
opinion, any property may now be taken for the benefit of 
another private party. The government now has license to 
transfer property from those with fewer resources to those with 
more. The founders cannot have intended this perverse result.
    The public reaction to the Kelo decision was swift and 
strong. According to the Wall Street Journal and an NBC news 
poll, in an 11-to-1 margin, Americans said they oppose the 
taking of private property for public uses. And according to an 
American survey poll conducted at the time, public support for 
limiting the power of eminent domain is robust and cuts across 
demographic and partisan groups. Justice O'Connor, in a 
subsequent speech, called the Kelo decision scary. Even Justice 
John Paul Stevens, who wrote the Kelo decision for the five-
justice majority, subsequently told the Clark County, Nevada 
Bar Association that if he were a legislator instead of a 
judge, he would have opposed the results of his own ruling by 
working to change current law.
    Well, we've taken some of that advice. Well, that's exactly 
what the Private Property Rights Protection Act will do. This 
legislation has a long bipartisan history. On October 25th of 
2005, then Judiciary Committee Chairman Sensenbrenner and 
Representative Goodlatte, the current chairman, along with 
House Judiciary Committee Ranking Member Mr. Conyers, first 
introduced the Private Property Rights Protection Act, which 
would deny States or localities that abuse eminent domain all 
Federal economic development funds for a period of 2 years. 
This bill was reported out of the House Judiciary Committee on 
October 27th by a vote of 27 to 3. The bill went on to pass the 
House with 365 votes. It subsequently passed the House by a 
simple voice vote.
    The NAACP and the AARP has said: ``The takings that result 
from the Supreme Court's decision will disproportionately 
affect and harm the economically disadvantaged and, in 
particular, racial and ethnic minorities and the elderly.''
    The representatives of religious organizations have stated 
that: ``Houses of worship and other religious institutions are, 
by their very nature, nonprofit and almost universally tax-
exempt. These fundamental characteristics of religious 
institutions render their property singularly vulnerable to 
being taken under the rationale approved by the Supreme 
Court.''
    And the American Farm Bureau, the federation has stated: 
``Farmers and ranchers own and lease significant amounts of 
land on which they depend for their livelihoods and upon which 
all Americans rely for food and basic necessities. As valuable 
as the land is to our members and to the rest of the country, 
however, it will often be the case that more intense 
development by other private individuals or entities for other 
private purposes would yield greater tax revenue to the local 
government,'' close quote. That's the American Farm Bureau.
    Congress' power to condition the use of Federal funds 
extends to prohibiting States and localities from receiving any 
Federal economic development funds for a specified period of 
time if such entities abuse their power of eminent domain, even 
if only State and local funds are used in that abuse of power.
    Such a broader penalty is an appropriate use of Congress' 
spending power, as the Supreme Court has made clear that 
Congress may attach conditions to the receipt of any Federal 
funds, provided such conditions are related to the, quote, 
``Federal interest in particular and national projects or 
programs,'' close quote.
    Under this legislation, there is a clear connection between 
the Federal funds that would be denied and the abuse Congress 
is intending to prevent. The policy is that States or 
localities that abuse their eminent domain power by using 
economic development as a rationale for taking should not be 
trusted with Federal economic development funds that could 
contribute to similarly abusive land grabs.
    This legislation also includes an express private right of 
action to make certain that those suffering injuries from a 
violation of the bill will be allowed access to State or 
Federal Court to enforce its provisions.
    I look forward to hearing from all of the witnesses today 
and to continuing the bipartisan tradition here in the House of 
Representatives, maybe even restarting it here today, and of 
protecting private property rights.
    And I would point out, as I remarked earlier, that I recall 
clearly the debate we had on the floor of the House of 
Representatives in 2005, June 30th, when we had a resolution 
rejecting and a resolution of disapproval of the Supreme 
Court's decision. And I went down to the front row and prepared 
myself to rebut Mr. Barney Frank of Massachusetts, because that 
happened often, and I took my notes on all that he said and 
realized that Mr. Frank and I completely agreed on this 
property rights Kelo decision.
    I would also point out that the properties in question in 
New London, Connecticut, are grown up to weeds. They haven't 
been developed, and the people that were displaced were abused 
by this decision and by their local government.
    And the very vitality of America's free enterprise economy 
is rooted in property rights, and without them, capital can't 
make wise investments and we actually don't own our homes if it 
can be at the design of someone with more money and more 
political influence that could move eminent domain against our 
private property. So I am very much in support of this 
legislation that is before us here today.
    I look forward to the witnesses, but I would yield to the 
ranking member for his opening statement.
    Mr. Cohen. Thank you, Mr. Chair.
    This is not one of those black-and-white issues like should 
we have health care for everybody or not, should we extend 
voting rights to everybody or not, those things that are easily 
understood and part of the American way. This is a difficult 
decision.
    In the 113th Congress, I voted against a bill that was 
substantially identical to this bill. And I understand the 
nuances, but I still remain opposed to the bill.
    I voted against that bill after I thought about it for a 
long time and considered the arguments. And there are good 
arguments on both sides for the use of eminent domain for 
economic development and about the need for Congress to 
appropriately intervene when necessary. And it was a tough 
call. As I say, not like health care, which it's obvious that 
everybody should have health care and we should all have voting 
rights and, you know, women should have choice and things like 
that.
    But, I was sympathetic to those who opposed the Supreme 
Court's decision in Kelo. In that case, the Court upheld as 
constitutional the decision of that city to take private 
property and give it to another private party as part of an 
economic development plan.
    I understand and appreciated the fact that the power of 
eminent domain has been abused by some localities for sure, and 
it targeted oftentimes low-income and minority communities for 
wholesale destruction. And I think at the time the NAACP was in 
favor of this bill, because of that reason. I think they've 
switched their position, but that had an influence on me too.
    And those local governments that weren't doing as good a 
job as they were were able to do so because such communities 
were politically marginalized and they were not in a position 
to challenge the taking of property for public purposes, 
including for economic development. As Mr. King has mentioned, 
it sometimes was the small houses and they couldn't compete 
with the powerful developers. And that's unfortunate. Normally, 
I'm on the side of the weak and the poor and what you do unto 
the least of these.
    However, I concluded that economic development can help 
everyone, and that those people who were in the worst economic 
shape and had difficulty sometimes getting together their 
strength to fight at the city council level may be the ones 
that benefit the most from economic development, because--not 
to agree with our 45th President, who said, you know, how much 
worse can it get? We've seen how much worse it could get. It's 
gotten a lot worse with the proposals that are made with the 
budget he's proposed.
    But the minority communities in inner city are very down in 
terms of economic opportunity, and they do need the jobs. They 
need the economic development that these projects are intended 
to provide.
    So, there's merit in letting States and localities use 
eminent domain to develop communities and have economic 
revitalization. It's sometimes extremely essential.
    My city of Memphis is not among the cities that are doing 
the best economically. We are in the lower ranks of growth, 
economic growth, jobs growth, and we've got a lot of areas 
we're not--so sometimes eminent domain can be helpful in 
creating economic vitality, and that creates jobs. And 
oftentimes in the inner cities, which are important to keep as 
a core, because that's where people come together rather than 
running away--flight to the suburbs.
    So it's an important issue that helps minorities maybe more 
so than it hurts them. Indeed, using eminent domain can help 
the less powerful communities, marginalized, so to speak, 
because that's where the problems are disproportionate.
    Just to the point of whether use of eminent domain for 
economic development is a good or bad idea, it was appropriate 
for the court in Kelo to leave that decision to States and 
localities, interestingly enough. States and localities I think 
should make zoning decisions and local economic decisions. That 
should be a local decision, as should medical malpractice, and 
that should be a State decision, as should the right to carry 
guns, but that's a whole different area of law.
    This is because State and local governments are in the best 
position to understand local conditions and local needs, which 
is why land use decisions have traditionally been left to them. 
Sometimes the one-size-fits-all Washington answer is not the 
right answer. We want to leave things to local folks.
    In criticizing the Kelo decision, many people have 
unhelpfully blurred the distinction to two issues, whether or 
not using eminent domain for economic development is a good 
idea on its merits, on the one hand; or, on the other hand, 
whether courts or an elected legislature at the Federal, State 
or local level should make that decision as to the first 
question.
    The court's decision in Kelo did not come out of thin air. 
It wasn't a case of just kind of first impression. It relied on 
decades of precedent to hold that a State or city could use 
eminent domain for public purposes of economic redevelopment.
    The court also made clear States are always free to pass 
new laws or take other measures to limit or prohibit the use of 
eminent domain to give greater protection to property owners, 
something 44 States have done in response to the Kelo decision. 
And that's what the States have done, who know what their 
communities' needs might be.
    Rather than short circuiting the State-level response, we 
ought to let it continue to develop. There are constitutional 
issues here. Mr. King took a proactive position and said, well, 
I think it's constitutional. The Supreme Court has made clear 
that there are constitutional limits to Congress's power to 
condition the use of Federal funds by States.
    Congress may not threaten States with the loss of Federal 
funds to the degree where it coerces a State into carrying out 
Federal policy. H.R. 1689 conditions the use of vaguely defined 
Federal economic development funds on States' willingness to 
prohibit the use of eminent domain for economic development, 
and threatens to take away those funds completely for 2 years 
if the State doesn't comply.
    Such a total loss of Federal funding may amount to the 
unconstitutional coercion of the States by the Federal 
Government. As a practical matter, losing Federal funding could 
bankrupt many already struggling municipalities, is something I 
find unacceptable.
    For these and other reasons on what is a close call but a 
call that I find is important to just leave to States and local 
governments the decision and decisions that might help the 
economically depressed more and those that need it greatly. I 
find the bill unnecessary and problematic and, therefore, I 
continue to have concerns and will oppose the bill.
    I yield back the balance of my time.
    Mr. King. The gentleman yields back.
    And the chair would now recognize the ranking member of the 
full committee, Mr. Conyers of Michigan, for his opening 
statement. Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    My colleagues, this is an interesting question. And my 
first observation is that most States are already taking 
action, and here comes the Feds marching in to determine what 
they ought to do or can do.
    I am concerned about the provision in the bill denying 
Federal economic development funds for 2 years. If the States 
appear to be in consensus on the need to prevent abuses, 
Federal intervention is neither necessary nor appropriate. So 
this attempt at legislation to respond to Kelo, which affirmed 
a city's use of eminent domain to transfer property from one 
private party to another for the public purpose of economic 
development. In the wake of that decision, there was concern 
that States and cities could expand their use of eminent domain 
to the detriment of politically marginalized groups.
    And so I think this bill, in my view, unnecessarily 
intrudes on State decisionmaking and violates Federalism 
principles.
    And I am going to yield to my colleague from Maryland, Mr. 
Raskin, to get his two cents' worth in.
    Mr. Raskin. Thank you so much, Mr. Conyers.
    Welcome to the witnesses.
    It is, indeed, a very engaging and fascinating subject 
before us today. I am particularly interested in what the 
witnesses have to say with respect to developments in the 
States since the Kelo decision.
    As I recall Kelo, the court set out kind of a typology of 
answers to different kinds of situations. Everybody seems to 
agree that if you have the government just nakedly taking A's 
property and giving it to B, that runs afoul of the takings 
clause. Everybody seems to agree, on the other end of the 
spectrum, that if you have the government developing for a 
public purpose like a bridge or a road or a park or what it 
might be, that it can be taken with just compensation under the 
takings clause.
    And then the question in the case was, what happens if you 
have a general social purpose for redevelopment of a community 
or neighborhood and you are taking one person's property that 
may not even be, quote, ``blighted,'' which has been the 
traditional justification for doing this, and it ends up in the 
hands of another private party as part of an overall 
development scheme.
    And I think what caused so much consternation was the 
court's validation of a situation like that, that a public use 
could be defined as being part of an overarching public 
purpose.
    So I am curious as to what the States have done to protect 
people in a situation like that. In other words, have they 
extended more State constitutional or statutory protection in a 
context like that, where the Supreme Court seems to have 
withdrawn Federal constitutional protection.
    And then I am also interested, if the witnesses would 
address the question of the utility and the specific efficacy 
of the legislative proposal before us.
    I'm not sure I totally understand its terms, but the way I 
basically understand it is that if a State or a locality is 
engaged in a particular redevelopment project that does 
transfer property holder A's property to property holder B, 
then no economic development funding can come in for a certain 
period of time, 5 or 7 years I think it was.
    And I'm wondering what you think about that as a solution 
to the problem that was caused by Kelo that was so widely 
understood to give too much authority to local governments to 
take people's property. And so is this a good answer?
    If the Federal response is going to be along these lines, 
should it be a discontinuation of any Federal funding for the 
particular project that involves the transfer of one person's 
property to another or should it be in general to the whole 
State or the whole community, because I think that there's some 
ambiguity in the way that the legislation is written. Should it 
be a cutoff to the entire State for any purposes or should it 
just be for the purposes of the particular project?
    Those are my thoughts. And thank you very much, Mr. Chair, 
and Mr. Conyers, for yielding.
    Mr. King. Mr. Conyers yields back his time and I appreciate 
his opening statement. And I thank the gentleman.
    And, without objection, other members' opening statements 
will be made part of the record.
    Let me now introduce our witnesses. Our first witness is 
Jeffrey Redfern, an attorney at the Institute for Justice, a 
public interest law firm. And our second is Tina Barnes. Ms. 
Barnes is a medical billing clerk and a client of the Institute 
for Justice. And our third witness is Mr. William Buzbee, 
returning here, professor of law at Georgetown University Law 
Center.
    Each of the witnesses' written statements will be entered 
into the record in its entirety. I ask each of the witnesses to 
summarize your testimony in 5 minutes or so. And to help you 
stay within that time limit, there is a light in front of you. 
And you'll recognize that it is green; yellow, and yellow means 
you have a minute left; and when it gets to be red, we hope you 
have summarized your thoughts, but we want to hear the 
completion of those thoughts.
    So before I recognize the witnesses, it is our tradition 
that the subcommittee witnesses be sworn in. So witnesses, 
would you please stand to be sworn, and raise your right hand.
    Do you swear that the testimony you are about to give 
before this committee is the truth, the whole truth, and 
nothing but the truth, so help you God?
    You may be seated. Thank you.
    Let the record reflect that all the witnesses responded in 
the affirmative.
    And I now recognize Mr. Redfern for his testimony. Mr. 
Redfern.

TESTIMONY OF JEFFREY REDFERN, ATTORNEY, INSTITUTE FOR JUSTICE; 
TINA BARNES, CLIENT, INSTITUTE FOR JUSTICE; AND WILLIAM BUZBEE, 
       PROFESSOR OF LAW, GEORGETOWN UNIVERSITY LAW CENTER

                  TESTIMONY OF JEFFREY REDFERN

    Mr. Redfern. Thank you, Chairman.
    And thank you for the opportunity to testify about eminent 
domain abuse, an issue that has rightly received national 
attention as a result of the Supreme Court's infamous decision 
in Kelo.
    My name is Jeff Redfern. I am an attorney at the Institute 
for Justice, and I am here with my client Tina Barnes. She is a 
member of the Charlestown, Indiana, City Council, and she is a 
resident of a neighborhood that has been targeted for Kelo-
style redevelopment.
    After the Kelo decision, there was a nationwide backlash, 
and many States passed some kind of reform. But, unfortunately, 
a lot of these reforms were not meaningful and, adding insult 
to injury, government subsidies, including Federal funding, 
continues to finance these abuses. We're glad the committee is 
focused on this issue and we hope that Congress takes action.
    When you litigate eminent domain cases, as we at the 
Institute for Justice do, you inevitably get to see a lot of 
PowerPoint presentations about proposed developments. And they 
often have beautiful architectural renderings, things like 
trendy loft apartments, and high-end fitness centers, and 
organic gelato shops. And the public officials that promote 
these plans, they always claim that they are portraying the 
revitalization of a neighborhood. But that's not really 
accurate. What they're really portraying is the wholesale 
replacement of a poor neighborhood with a wealthy one.
    And what is always missing from these pictures is the fate 
of eminent domain's victims. You see, eminent domain is used 
almost exclusively in low-income neighborhoods. And the people 
who live there simply can't afford to live in the kinds of 
luxury housing that the developers want to build.
    That's actually what we're seeing in Charlestown, where Ms. 
Barnes lives. The developer there wants to replace homes worth 
about $50,000 with homes worth hundreds of thousands of 
dollars. Many of these people have absolutely no idea where 
they're going to go.
    The consequences for displaced people are devastating. They 
lose not only their homes, but their neighborhoods, their 
communities, their support networks. And these harms are too 
often invisible, because the victims of eminent domain are 
literally out of sight; they're gone.
    The use of eminent domain for private development first 
took off during the 1950s and sixties during the so-called 
urban renewal movement. In this period, American cities went 
wild, bulldozing poor neighborhoods, and in the process 
displacing over one million people. Normally, when a million 
poor people are driven from their homes with no idea where 
they're going to go, we'd call that a refugee crisis.
    But the public officials who wanted to raze these 
neighborhoods invariably said that they were doing it for the 
good of the residents. For instance, the Supreme Court in 1954 
approved the use of eminent domain to redevelop southwest 
Washington, D.C. In that decision, the court said that living 
in that neighborhood could, quote, ``suffocate the spirit and 
make living an almost insufferable burden.'' Well, the burdens 
of living in poor housing don't compare to the burdens of being 
forced out of one's home and neighborhood with no clear idea of 
where you're going to go. When the dust settled in southwest 
D.C., almost all of the former residents were gone. And the 
same story has continued to play out for decades around the 
country up to the present.
    An obvious consequence of this kind of forced displacement 
is economic. The destruction of low-income housing drives 
prices up. One study found that 86 percent of people displaced 
by eminent domain end up paying more for housing after they 
relocate.
    Many small businesses, such as corner stores, restaurants, 
barber shops, they're completely destroyed, because you can't 
relocate those kinds of businesses away from your customers.
    There are also noneconomic consequences. One study tracked 
down the former residents of southwest D.C. who had been 
displaced by eminent domain, and the findings were 
heartbreaking. Five years after forced displacement, 25 percent 
of the former residents had yet to make a single friend in 
their new neighborhood. Eminent domain doesn't just destroy 
low-income housing; it destroys communities and support 
structures that simply can't be replaced.
    Now, I study these issues and I litigate these cases, but I 
think that my client Tina Barnes understands better than I ever 
will what is really at stake when governments are trying to 
forcibly displace homeowners.
    So I look forward to hearing her remarks and I also look 
forward to answering the subcommittee's questions.
    Thank you again for the opportunity to testify today.
    Mr. King. Thank you, Mr. Redfern.
    And the chair now recognizes Ms. Barnes for your testimony. 
Ms. Barnes.

                    TESTIMONY OF TINA BARNES

    Ms. Barnes. Thank you for the opportunity to testify about 
legislation that will protect the private property rights of 
people like me and my neighbors.
    My name is Tina Barnes and I live in Pleasant Ridge, 
located near Louisville, Kentucky, where I spent the first 17 
years of my life. Neighbors became family and helped to instill 
many values in me, including caring and helping others. When I 
found myself divorced, I moved back to Pleasant Ridge. I bought 
a duplex, which is perfect for us. I have a disabled adult 
daughter, Casey, who lives on one side, and my two 
grandchildren, Taylor and Kenzie, live on the other side with 
me. I had come home and my children were thriving.
    Then in 2014, the unthinkable happened. Our mayor wanted to 
bulldoze our neighborhood for a wealthy developer to build an 
upscale subdivision with houses costing up to a million 
dollars. To achieve this, the mayor had applied for BEP 
funding, which is actually TARP money. He wanted to use Federal 
money to take everything from us. The application was full of 
lies. It stated our homes were blighted and temporary. Really? 
They've been standing for 70 years, through storms, tornadoes, 
and a hurricane. But worst of all, he called us transients.
    As I said, I grew up here, so let me tell you about some of 
our transients. Helen still lives in the same home I went and 
played in. Ms. Smith is a retired school teacher. Here is a 
woman that has devoted her entire life to teaching and now has 
to worry about her home being taken from her. The Brewers have 
lived here for generations and were a huge part of starting our 
volunteer fire department and lady auxiliary.
    My cousin Findley and his wife live next door in a home 
that my Uncle Garrison bought about 50 years ago. Their 
daughter Angela lives across the street. The Keiths have a 
beautiful home and a sanctuary for a backyard that even has an 
irrigation system. We are far from being transients.
    The BEP application was pulled, but our mayor did not give 
up. He has now passed numerous ordinances designed to rid the 
city of Pleasant Ridge. One ordinance has been used against the 
landlords. They have been cited with hundreds of thousands of 
dollars in fines and their only resource was to sell out to the 
developer for only $10,000 per property. Time has run out for 
some of these renters, and they have nowhere to go. Like 
Robbie, who is bedridden with MS.
    It is truly sad watching them leave. Some of the children 
that have left, like Antonio, John Carlos, and Zack, used to 
play in our yard. It has been extremely hard on the adults 
involved, but can you imagine what this is doing to our 
children? How are they going to respect government after being 
treated this way? Losing their home and having the mayor refer 
to us as a cloud over the city.
    Never would I have imagined that anyone holding a public 
office would refer to people living in their city this way, 
that a public official would go after a group of citizens using 
such tactics as this to obtain their privately owned property. 
After all, this is America, and one of the most fundamental 
rights is to own property.
    We have been fighting this battle for 3 years. I cannot 
even begin to explain the amount of stress this has placed on 
all of us. I've watched the decline of many of my neighbors, 
and we've buried several. Some of them was Barb. She loved to 
collect salt and pepper shakers. A few had heart attacks, like 
Larry and Peggy.
    See, the truth is, we know our neighborhood would have 
benefitted from the BEP funding had it been used in the manner 
it was intended. We ask you to not let eminent domain be used 
to force us out of our homes. We still believe in you, our 
government. And a major function of our government is to 
protect us, and that protection must include the right to 
ownership of property. So, please, whatever legislation that 
you must pass to restrict the use of Federal funds to ensure us 
that protection and prevent us from having a fight like 
Pleasant Ridge battle, please do this.
    And, again, thank you for hearing our story.
    Mr. King. Thank you, Ms. Barnes.
    The chair now recognizes Professor Buzbee for his 
testimony. Professor.

                  TESTIMONY OF WILLIAM BUZBEE

    Mr. Buzbee. Thank you, Chairman King, Ranking Member 
Conyers, and members of the committee. Thanks for inviting me 
here today.
    I should preface my testimony, saying that I agree that 
eminent domain can be abused, as can any political power. I 
also agree it should be rarely used, and I support many State 
law reforms to limit the uses of eminent domain.
    Those risks of eminent domain, however, don't logically 
call for a single one-size-fits-all Federal law, especially 
that would displace more context-sensitive and politically 
informed judgments of State and local governments. So I will 
break my testimony into six fairly succinct points.
    First, I think the bill is based on an erroneous reading of 
the Supreme Court's Kelo decision. Now, it is correct that the 
Kelo declined to bar private-to-private takings/transfers. It 
called for judicial deference to State and local governments to 
determine if there is a public purpose. But first, it did not 
make radical new law; it followed about 100 years of precedent.
    Second, it did not surrender judicial taking scrutiny, it 
repeatedly emphasized that purely private takings are not 
permitted. And it also again and again emphasized that the case 
involved legitimate economic development planning and no 
evidence of illegitimate purpose. And this discussion, as my 
colleagues here I think have used, that discussion created 
litigation opportunities if a State and local government is 
pursuing eminent domain without the kind of publicly 
accountable economic development planning and public 
accountable action.
    In addition, Kelo itself welcomed and prompted State law 
reforms. And many States have, indeed, amended their laws to 
discourage or prohibit such private-to-private takings, but 
with a diversity of approaches. I would emphasize that 
especially valuable are the State and local governments that 
have made sure eminent domain follows a very public and 
accountable process. So Kelo has been over-read and States have 
been responsive.
    Second, about the bill's constitutionality. I think it's 
mostly well-crafted to fit within Federal power. However, the 
2012 NFIB v. Sebelius decision did say that conditional Federal 
spending can be unconstitutionally coercive, and so I think 
important for this committee and Congress to assess the 
magnitude of this bill's financial threat to State and local 
governments if Federal economic development funds were 
forfeited. And I have not found that in previous testimony. I 
think it important to hear from State and local governments 
about that.
    Third point: Eminent domain remains a legitimate and often 
necessary regulatory tool. State and local governments are 
always trying to spur new development, strengthen their tax 
base, and attract new employers. And very often eminent domain 
and development efforts do involve efforts to assemble large 
parcels and an attempt to attract large private employers and 
large private projects. So this bill is targeted not at the 
exception, but something that could have a very, very vast 
economic impact.
    Eminent domain remains important to address the problem of 
economic holdouts. Sometimes they're just good faith disputes 
over value, but, as economists and professors and historians 
have documented, some involve holdouts who strategically try to 
demand a special premium as their property becomes more and 
more crucial to a development effort that is well underway.
    Eminent domain provides the answer. The government has to 
pay, and it has to pay fair market value. So, again, I think 
eminent domain is a bad alternative, but it does have a place 
and can be important in the regulatory tool chest.
    Fourth, does this bill fit into any traditional rationales 
for Federal regulation? I think it doesn't. As you look at this 
bill, this is an area where the Federal Government has no 
special expertise. There are no regulatory economies of scale 
to have this handled at the Federal level. This is not uniform 
Federal standard-setting to assess or prevent regulatory races 
to the bottom, and there's no cross-border harms. In fact, here 
you are dealing with a situation where there's a diversity of 
State and local conditions, and that generally cuts against a 
one-size-fits-all punitive Federal scheme. Does it make sense 
to impose a strong anti-eminent domain policy on booming and 
struggling cities? Should Manhattan and Detroit be subject to 
the exact same incentives and threats? I think State and local 
conditions, tradeoffs, goals, and economic needs are generally 
best known by State and local governments.
    My fifth point, I think that this bill actually does create 
a problem that people haven't previously recognized, and I call 
this the strategic super-holdout problem. And that is, this 
bill would specially empower property holders not just with the 
value of their land, which is always something they can seek, 
but by being able to threaten the loss of all Federal economic 
development funds.
    A single holdout can threaten really not just to hold up a 
project, but to cause a cessation of major funds that would 
otherwise flow to the jurisdiction. And so this holdout really 
is specially empowered, and I think that's a real problem.
    As I suggest in my testimony, I see my time is running out, 
I think one way to address some of these issues would be that 
if this bill is to proceed is that there should be some way for 
people to know, if they have reached a genuine agreement with 
State and local governments, that they couldn't take fair 
market value and then walk away and then sue. And then 
similarly, there should be a way for people to settle in a way 
that they know is final. This would mean timely challenges 
rather than waiting up to 7 years later.
    Thank you very much.
    Mr. King. Thank you, Professor Buzbee.
    I thank all the witnesses.
    I now recognize myself for 5 minutes.
    As I listen to the testimony here, I reflect back upon an 
incident that happened in one of my hometowns some years ago, 
where there was a gentleman that farmed right on the outside 
edge of town. He had bottom ground that had a good location 
with highway access, gravel road access, and utilities. He 
liked farming that piece of ground. And Walmart came into town 
and said, we'd like to build a Walmart here on this 17 or 19 
acres that was worth probably a thousand dollars an acre at the 
time.
    And he said, no, I like my farm and I want to live out my 
life doing this. And they kept upping the ante and upping the 
ante until they got up to about $545,000 as opposed to $20- or 
$25,000. And then the five kids flew home and said, Dad, you 
need to think about us too, and he sold the land and Walmart 
built the building.
    Now, I understand this is private to private. But that's 
how eminent domain is supposed to be respected and how property 
rights are supposed to be. What that value of that land is is 
what it's worth to the owner, not what it's worth to somebody's 
calculation on what fair market value is. And that's why the 
people that have been pushed off their homes, as Ms. Barnes has 
testified, why it cuts so deeply, because it's your homes, and 
it's generational, generational homes that you've been pushed 
off of.
    And so when I think of--but a way they might have done this 
with Walmart, they might have then instead said, it's too high 
to bid this up to $545,000, we're going to go to the city and 
propose a mall, and now you're going to get all of this 
property tax, go in and condemn the property, we will take it 
over, we will build the retail outlet.
    And everything is done at a much cheaper price than paying 
what that land was worth to the person who owned it under their 
sacred property rights and sold it.
    So if I see little white square frame farmhouse or a house 
of any kind sticking up out of an asphalt parking lot on a 
strip mall, that makes me happy, because that's a symbol of the 
protection of property rights. And when I think of what the 
Fifth Amendment says: ``Nor shall private property be taken for 
public use''--and I emphasize ``for public use''--``without 
just compensation.'' One thing that not only Barney Frank, Ms. 
Barnes and also Sandra Day O'Connor, Justice O'Connor agreed on 
is that that Kelo decision stripped those three words out of 
the Fifth Amendment, ``for public use.''
    And so if the court can strip ``for public use'' out of the 
Fifth Amendment, how then shall we rewrite the Constitution if 
we're going to amend it to fix this problem that was created, I 
believe, by the Kelo decision? And do we say we really mean it, 
for public use, or do we concede that the court can ignore the 
plain language of the Constitution itself? Then you can look at 
the Fifth Amendment, giving them a similar amount of latitude 
that they took in the Kelo decision, and argue that there is 
really no prohibition in the Fifth Amendment for the government 
from taking private property.
    It doesn't say you can't take private property; it's 
implied in the Fifth Amendment. ``Nor shall private property be 
taken for public use.'' And so if we are going to ignore ``for 
public use,'' then we can ignore also the prohibition on taking 
private property, because that's less specific in the Fifth 
Amendment than the language ``for public use.''
    So I am way disturbed by an amendment to the Constitution 
that has been edited by the Supreme Court with a level of 
impunity. And the impact of all of this breaks my heart, but 
the damage to the Constitution is even greater.
    So I know, Professor Buzbee, you heard my argument on this. 
And I wanted to give you an opportunity to respond and perhaps 
rebut the assertions that I've made.
    Professor, here's your opportunity.
    Mr. Buzbee. First, thank you. And I agree that eminent 
domain should be the exception. I think it's completely 
legitimate for State and local governments to look at their 
conditions and create high hurdles to it. I think they 
genuinely should.
    And so two responses: One is the idea that eminent domain--
--
    Mr. King. To the constitutional principle, though, that I 
have articulated.
    Mr. Buzbee. The idea that under the Constitution that 
eminent domain plays a role, the Constitution recognizes it. It 
has long been one of the regulatory pieces in the tool chest.
    Mr. King. Do you agree that the Supreme Court stripped the 
three words out of the Fifth Amendment, ``for public use''?
    Mr. Buzbee. I don't. You know, the way the court looked--
and it really is about 100 years and it goes back to opinions 
by Oliver Wendell Holmes.
    Mr. King. And I do understand that string of arguments, but 
the effect of it has been--and what if we accept that and we 
look at the Fifth Amendment now and we accept for public use is 
no longer an issue. Then do we use our judgment? Because that 
sounds to me like your testimony was we need to use our 
judgment at local government rather than be bound by the 
Constitution.
    Mr. Buzbee. No, no, no. I think that eminent domain remains 
a check--the Kelo case really does set out several kind of 
toeholds to challenge illegitimate takings. The idea that you 
need a public purpose, which is the phrase that has been used 
for about 100 years, remains in the Constitution and has been 
well-litigated.
    Mr. King. Thank you, Professor. And I would assert that 
that's out on the fringes of the argument myself.
    But if the panel would indulge me, I would like to give Mr. 
Redfern an opportunity to respond.
    Mr. Redfern. Sure. First, I want to note that whether Kelo 
broke new ground doesn't directly speak to whether eminent 
domain abuse is a problem and whether this bill can solve it. 
But I think we don't need to parse the language of Kelo to 
determine whether it broke new ground.
    The data shows that it did. After Kelo was decided, eminent 
domain condemnations tripled nationwide. That happened because 
developers understood that private property rights had been 
eviscerated. We wouldn't have had a dramatic change on the 
ground if there hadn't been a dramatic change in the law.
    This idea that eminent domain should be a rare exception, 
everybody says that eminent domain should be rare, that it 
should be an exception, but that isn't meaningful if it's still 
on the table. You don't have any leverage to negotiate if you 
know that if you choose not to sell, the government is just 
going to come and condemn your land anyway. So I don't think 
that's much comfort to property owners.
    And then finally, regarding whether there are any 
limitations in Kelo, we think that there are some toeholds, and 
we're working to develop them. But so far, under Kelo, it has 
been no holds barred in those States. We've primarily been 
litigating in States that have greater protection for 
constitutional rights.
    Mr. King. Thank you, Mr. Redfern. My time has run over, but 
I recognize the ranking member from Tennessee for his 
questions.
    Mr. Cohen. Thank you, sir.
    It's a tough case to make an argument on, but I do think 
it's a local issue. And eminent domain has done good on many 
occasions. Sometimes it hasn't.
    Ms. Barnes, in your situation, it sounds like it was maybe 
not done well. Were you elected to the city council after this 
happened?
    Ms. Barnes. Kind of in the middle. I was elected last year. 
And a new council came along with that, and that was the hand-
picked people the mayor had chosen other than myself had won. 
So they've been able to pass new laws to govern our city that 
has been absolutely targeted onto Pleasant Ridge.
    The first council is the one who voted against the BEP 
application, and that's the reason it was pulled.
    Mr. Cohen. And was the mayor reelected too?
    Ms. Barnes. Yes, he was.
    Mr. Cohen. And what is the project they're putting in? It's 
homes? You say million dollar homes?
    Ms. Barnes. Yes, sir.
    Mr. Cohen. Pleasant Ridge. Is Pleasant Ridge to the folks, 
is it close enough to where the people live in Louisville?
    Ms. Barnes. We now----
    Mr. Cohen. I mean work in Louisville, excuse me.
    Ms. Barnes. We now have a bridge that has been built on the 
very outskirts of our town that connects us to Louisville, 
Kentucky, which makes it very accessible. There is a huge Ford 
Motor plant that's just minutes away from us now. And then the 
other thing that has came into play is the Indiana Army 
Ammunition Plant is actually located in Charlestown, and that 
has been opened up for privatizing. So we've had a lot of 
businesses come in there.
    So our mayor looks at our town as the next boomtown. And 
our subdivision, our particular place has 350 houses on it, and 
it's very localized. We can walk to anywhere in the town and be 
able to get to the store and buy whatever we need to. A lot of 
our neighbors don't even have cars, because they just walk 
there.
    But there's all kinds of land outside of our neighborhood 
that can be used for the same purpose. It doesn't have to be 
our neighborhood. We have empty lots all over the place, and 
they can build there. I don't understand why our neighborhood, 
to be honest with you. It's just what they have chosen.
    Mr. Cohen. And have they done all the buying of the 
properties in your neighborhood?
    Ms. Barnes. I'm sorry?
    Mr. Cohen. Have they bought all the homes up in your 
neighborhood?
    Ms. Barnes. No, sir. They have bought about 150, and all of 
those are landlord rental properties. They have not bought any 
of our homes. So we still have about 200 that still is there, 
not to be sold.
    Mr. Cohen. Maybe there's a reason why it's called Pleasant 
Ridge, and that's why they wanted it.
    Ms. Barnes. Well, I think they will change the name, 
though, I'm sure. But they're not going to, because I'm still 
going to be there.
    Mr. Cohen. Good luck.
    Professor, how would you respond to Mr. Redfern's argument?
    Mr. Buzbee. Well, as I understand the argument, they would 
like stronger protections. And the main view is first this idea 
that there was a tripling post Kelo of use of eminent domain. 
It's very difficult to figure out before and after, with 
economic conditions and the rest. And so I've always been 
slightly skeptical of that. I have not looked at it, but I 
think it's worth studying. Like if I were Congress, I would 
certainly commission a study to figure this out.
    But my own sense here is that eminent domain can be abused. 
I hope that State and local governments will put a check on it. 
But the idea that Federal Government should prevent all 
jurisdictions across the country from trying to catalyze 
development and deal with the holdout problem I think would be 
an overreach.
    So, although I think it should be used sparingly and it can 
be a bad idea, it does have a place. And I think that it is not 
an area where the Federal Government brings the special skills 
or knowledge that it should across the board largely preclude 
private-to-private takings/transfers under an economic 
development plan.
    Mr. Cohen. Thank you. And, Mr. Redfern, just curious, where 
did you teach at prep school?
    Mr. Redfern. I taught at the Western School For Girls in 
Pasadena, California.
    Mr. Cohen. I went to Polytech. My first date----
    Mr. Redfern. Right down the street.
    Mr. Cohen. Right. Exactly.
    I yield back.
    Mr. King. The gentleman returns his time.
    The chair would now recognize the ranking member of the 
full committee, Mr. Conyers of Michigan, for his questions.
    Mr. Conyers. Thank you, Mr. Chairman.
    I wanted to point out to you, Professor Buzbee, that the 
critics of Kelo argued that it broke with past Supreme Court 
precedent on the issue of what constitutes public use under the 
takings clause. Do you sympathize with that description?
    Mr. Buzbee. No, I don't think that's correct. If you look 
at public use being defined as public purpose, it goes back to 
the late 1800s. And then there were several previous cases 
where the court had recognized that can include legitimate 
State and local choices to try to further the public purpose 
where, in the end, eminent domain involves private projects.
    Mr. Conyers. Does this measure, 1689, raise any 
constitutional red flags under the spending clause, 
particularly given that it threatens the State with loss of all 
of its Federal economic development funding for 2 years if even 
a locality violates the requirements of this bill?
    Mr. Buzbee. I believe there could be a concern. I think 
what counts after the Sebelius case as unconstitutional 
coercion needs to be a large amount. But this bill doesn't 
actually define what falls into this category, and so what you 
need to have someone do is to trace how much Federal dollars 
flow to State and local governments to see if this is truly 
coercive. If it is, it could be unconstitutional.
    Mr. Conyers. That's true.
    Well, I thank you and I yield back the balance of my time.
    Mr. King. Would the gentleman yield?
    Mr. Conyers. Sure.
    Mr. Raskin. Thank you very much.
    So, Ms. Barnes, I've been in Congress now for only 3 
months, but I think you are the best witness I've seen since I 
got here.
    Ms. Barnes. Thank you.
    Mr. Raskin. So thank you for your testimony. It was very 
powerful. You also have a very good lawyer, I think. I don't 
know whether Mr. Redfern represented Vera Coking, but that was 
an Institute of Justice client as well.
    Do you know who Vera Coking is?
    Ms. Barnes. No, sir.
    Mr. Raskin. Vera Coking is a woman in a very similar 
situation to you. She lived right off the boardwalk in Atlantic 
City. And somebody bought a huge hotel or land and built a huge 
hotel next door and then wanted to create a parking lot for 
limousines. And the name of the guy who did that was Donald 
Trump. And she didn't want to sell her house. She was exactly 
in your situation. She said, no way. Her house was worth around 
a half million dollars. They offered her 400, 500, I think, a 
million. She said, no, we're not moving.
    So he went to someplace called the Casino Reinvestment 
Development Authority, one of these shadowy public-private 
corporations set up in situations like this, to try to force 
her off of the land, and undoubtedly would have succeeded 
except the Institute of Justice intervened and represented her 
and was able to stop that takeover.
    I just found some articles about Donald Trump, who is a 
master of eminent domain. An article in the Washington Post: 
``Donald Trump's history of eminent domain abuse.'' He made a 
pattern out of just this kind of activity. Donald Trump's 
eminent domain love nearly cost a widow her house. Case after 
case where he tried to force people out, and he bragged about 
doing it and ultimately went to these authorities to try to 
push people out.
    What does it feel like to be the object of some big wealthy 
developer's ambition to take your property and force you out? 
What was the psychological/emotional experience like?
    Ms. Barnes. Anger is definitely on the forefront. Disbelief 
is there. You can't believe that somebody is just going to take 
your property just to build a bigger, prettier home. Why? My 
home's good enough for me, and my family.
    Mr. Raskin. In the Jersey case, Donald Trump said that the 
house wasn't very nice and she didn't really care about the 
house, she just wanted more money. How do you react to that? I 
mean, are you in a situation where they're saying all you want 
is more money?
    Ms. Barnes. Honestly, money hasn't even played a factor, 
because we've not even spoken about money. But even if it had 
been, honestly, there is no amount of money, because it's my 
private property. I bought it. I've paid for it. My children 
and I live there, and we're very happy with it. As, again, just 
because it's not big and pretty on the outside doesn't mean 
what is living on the inside.
    Mr. Raskin. Mr. Chairman, could I continue for my 5 
minutes?
    Mr. King. The gentleman's time has expired and he is 
rerecognized for 5 minutes.
    Mr. Raskin. Thank you very much, Mr. Chairman.
    So let me ask you, because here's the tough thing, Council 
Member Barnes, because you're a public official as well as 
being a homeowner in a citizen situation. If they were trying 
to take over your land for the building of a bridge, for 
example, or a street, would you be fighting it equally as hard 
as you are fighting this takeover by a big private real estate 
developer?
    Ms. Barnes. No, sir, I wouldn't. I understand those factors 
that would come into with a bridge. I would be disheartened and 
I would be hurt still that they're taking my home, but it's 
different.
    Mr. Raskin. You would not experience the same sense of 
wrong and indignation that you've got about turning it over to 
a developer to build a million dollar condo for somebody who 
can afford that.
    Ms. Barnes. Yes, sir.
    Mr. Raskin. So the distinction that the chairman of the 
subcommittee makes here is actually a meaningful one. There is 
a difference between a public use, in terms of a bridge, a park 
or a street, and a broadly defined public purpose, which is we 
want to economically redevelop and take A's land and give it to 
B.
    All right. Thank you very much for your testimony.
    Professor Buzbee, let me come to you, as a fellow law 
professor. I should be expected to concur with you here, but 
all of the heartstrings are tugging me in the other direction. 
I think that there is a real difference between something that 
is a public use and just a broadly defined public purpose.
    What would be the problem with Congress saying that we are 
not going to give money that goes specifically directly to a 
project like that, as opposed to punishing the whole State and 
other municipalities and counties in Indiana?
    Mr. Buzbee. You know, I think if it were a prospective with 
notice, that people would have to identify in advance if they 
were using Federal dollars in connection with such a taking, 
that would certainly be less chilling of all economic 
development involving eminent domain. So that would be much 
less harmful to State and local governments.
    So I think that would be a major difference in the design, 
but that definitely is not what this bill does.
    Mr. Raskin. I got you. No, I read it too and that's what 
jumped out at me. Do you think we could define it with 
sufficient precision to map off, to rope off the kinds of cases 
we see in the New Jersey case with Trump's attempt to take over 
the widow's house or in Ms. Barnes' case?
    Mr. Buzbee. I'm not sure, because I don't know how much 
State and local governments are careful to track and trace 
money as it moves through. If typical accounting keeps track of 
all money so they know which pool money is coming from, then it 
might be quite easy for governments to say, you know, this 
money is from the Federal Government, and be prohibited from 
using it.
    On the other hand, if it goes generally to a department 
which is handling public housing and vouchers and the rest and 
some development efforts, then it might be difficult to handle.
    Mr. Raskin. Of course, and that would then argue for the 
more sweeping approach that seems to be embodied in the 
legislation now, which is, don't go down this road at all 
because you're going to lose Federal money in general.
    Mr. Buzbee. Well, I don't think in the end, it does. 
Mainly, the holdout problem is not just a hypothetical. It's 
always there. So there are many people who absolutely have good 
reasons not to sell, but there also are people who 
strategically demand huge premiums to sell.
    Mr. Raskin. Well, but when you say huge premiums, that 
really is the market. I mean, my property is worth what my 
property is worth to me. I don't have to sell my house. That's 
what private property means, right? Somebody might say, well, 
the market would say your house is worth $200,000; but, as in 
Ms. Barnes' case, this is where, you know, my family has lived 
for several generations and we love it and we love the 
neighbors and you can't offer me a million dollars. That's what 
happened in the Trump case. He thought that his money could buy 
her, and she said, we're not selling. And so then he went to 
this, you know, public-private corporation to say, force her 
out, let's use the power of law to get her out. That just 
strikes me as really antithetical to the constitutional design.
    Mr. Buzbee. Well, just to respond briefly.
    Mr. Raskin. Please.
    Mr. Buzbee. If you look, I think the National Conference of 
State Legislatures and Vermont Law School and a few others have 
done sort of studies of these uses of eminent domain and 
negotiation. And I think there are some where people demanded 
like 60 to 80 times the value of their property, because they 
end up being a linchpin piece.
    Mr. Raskin. I got you.
    Mr. Buzbee. That's a possibility.
    Mr. Raskin. If it's a real public use, then we define what 
just compensation is, based on fair market value, right? But in 
a situation like this, the parking lot that Trump wanted to 
build for limos, now that whole property has been condemned. 
Trump has abandoned it, because of what happened in Atlantic 
City. So you could have forced some people out of their home, 
forced them to sell to Donald Trump at a rate that they never 
would have accepted, and then the whole thing could have gone 
bankrupt, as his business did, a couple years later. I don't 
understand how that's fair.
    In other words, that places a whole market paradigm on top 
of people's rights. And property means different things to 
people, I think.
    Mr. Buzbee. I agree. And it can be used in awful ways. And 
the only thing is you have to also assess places where it's 
important and a good legitimate use. You don't want to chill 
all of them. This particular bill I think is just too blunt a 
tool.
    Mr. Raskin. Mr. Chair, I yield back. Thank you very much.
    Mr. King. The gentleman returns his time. And I would say 
in conclusion that there's an image in my mind of a bill-
signing ceremony for H.R. 1689 where Mr. Raskin and Steve King 
might join together behind the desk of the President of the 
United States one day.
    Mr. Raskin. And we can invite not just Ms. Barnes but Ms. 
Coking too.
    Mr. King. And I thank all the witnesses for your testimony 
and the interchanges we've had, and the panelists.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    This hearing is now adjourned. Thank you.

                                  [all]
                                  
                                  
</pre></body></html>
